No.
In The

,

Supreme Court of The United States
Anthony I. Provitola and Kathleen A. Provitola, Petitioners pro se,
vs.
COMMISSIONER OF INTERNAL REVENUE, Respondent.
On Petition For a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
CERTIFICATE OF SERVICE OF PETITION FOR WRIT OF CERTIORARI
We, Anthony I. Provitola and Kathleen A. Provitola, Petitioners, pro se hereby certify that
on September 8, 2021, pursuant to Rule 29, Rules of the Supreme Court, we served three copies of
the foregoing Petition for a Writ of Certiorari and three copies of the included Appendix on the
Commissioner of Internal Revenue, Respondent herein by depositing such copies with the United
States Postal Service, DeLand, Florida, with priority mail postage prepaid, properly addressed to the
post office address of Julie Ciamporcero Avetta, Bruce R. Ellison and Pooja A. Boisture, the
above-named Respondent's counsel ofrecord, at U.S. Dep’t ofJustice, Appellate Section, Post Office
Box 502, Washington, D.C. 20044 and the Solicitor General of the United States, Room 5616,
Department of Justice, 950 Pennsylvania Ave., N. W., Washington, DC 20530-0001.
All parties required to be served have been served.
We declare under penalty of perjury that the foregoing is true and correct.
Executed on September 8, 2021

Kathleen A. Provitola,
Petitioner pro se
Post Office Box 2855
DeLand, Florida 32721
Telephone: (386) 736-0809
Email: kprovitola@cfl.rr.com

Anthony I. Provitola
Petitioner pro se
Post Office Box 2855
DeLand, Florida 32721
Telephone: (386) 734-5502
Email: aprovitola@cfl.rr.com

